   November 19, 2003




Readiness and Logistics

Effectiveness of Maintenance
Work Performed Under Contract
FA4452-01-C-0001 at Andrews Air
Force Base
(D-2004-021)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFB                   Air Force Base
AGE                   Aerospace Ground Equipment
CAMS                  Core Automated Management System
COMBS                 Contractor Operated and Maintained Base Supply
COR                   Contracting Officer’s Representative
FAS                   Fuels Automated System
SBSS                  Standard Base Supply System
          Office of the Inspector General of the Department of Defense
Report No. D-2004-021                                                November 19, 2003
   (Project No. D2003LH-0115)

           Effectiveness of Maintenance Work Performed Under
          Contract FA4452-01-C-0001 at Andrews Air Force Base

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in inventory management or in overseeing logistics support contracts should
read this report. This report discusses contractor compliance at Andrews Air Force Base,
Maryland.

Background. This is the first in a series of reports we will issue on the effectiveness of
contract logistics support in maintaining or improving aircraft readiness and DoD
weapons systems. Andrews Air Force Base obtains contract logistics support under a
contract with DynCorp Technical Services, Incorporated. The potential total value of the
contract is $280.5 million over a 10-year period that started on April 1, 2001, with a
firm-fixed-price portion of $268.9 million and an over and above portion not to exceed
$11.6 million. Under the contract, DynCorp Technical Services, Incorporated is required
to provide all personnel, equipment, tools, material, supervision, and other items or
services necessary to perform the management and operations of the aircraft maintenance
and base supply functions. In addition, DynCorp Technical Services, Incorporated is
required to provide over and above services including real world contingency support,
local manufacturing, dispersals and deployments, and accident investigations. Andrews
Air Force Base uses an award term plan process to rate DynCorp Technical Services,
Incorporated’s performance.

Results. DynCorp Technical Services, Incorporated effectively supported the 89th
Airlift Wing mission of providing worldwide airlift and logistical support. In addition,
the 89th Airlift Wing contracting officer’s representatives performed adequate
surveillance over DynCorp Technical Services, Incorporated. Specifically, DynCorp
Technical Services, Incorporated effectively managed aerospace ground equipment,
aerospace ground equipment bench stock, base supply, fuels, and munitions for the
89th Airlift Wing, with the exception of some minor issues. Effective management
occurred because DynCorp Technical Services, Incorporated performed adequate
oversight of its subcontractor, Trend Western Technical Corporation, by performing
physical inventories throughout the year and by proactively resolving inventory
discrepancies in a timely manner. As a result, DynCorp Technical Services, Incorporated
has earned more than the required minimum number of points for the first two
performance periods under the award term plan process, which makes it eligible to be
awarded future performance periods under the contract (finding A).

Overall, DynCorp Technical Services, Incorporated effectively managed aerospace
ground equipment, with the exception of some minor issues concerning scheduled
inspections and excess equipment. As a result, DynCorp Technical Services,
Incorporated and Trend Western Technical Corporation took corrective action to release
two excess pieces of aerospace ground equipment, valued at $18,603, from inventory for
use elsewhere (finding B).

The management controls that we reviewed were effective in that no material
management control weakness was identified.

Management Comments. The Air Force concurred with the findings and the potential
monetary benefits. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                           ii
Table of Contents

Executive Summary                                i

Background                                       1

Objectives                                       2

Findings
     Fulfillment of Contract Requirements        3
     Management of Aerospace Ground Equipment   13

Appendixes
     A. Scope and Methodology                   16
         Management Control Program Review      18
         Prior Coverage                         19
     B. Other Matters of Interest               20
     C. Report Distribution                     21

Management Comments
     Department of the Air Force                23
Background
    Contract Logistics Support. Contract logistics support is a contract support
    method used to provide all or part of logistics support for a system, piece of
    equipment, or item. Contract logistics support can be used for item,
    configuration, or data management; supply; distribution; repair; depot-level or
    organizational-level maintenance (and other levels as negotiated); and many other
    operations and maintenance tasks normally performed by a local support activity.

    Contract Logistics Support for the 89th Airlift Wing. The 89th Airlift Wing,
    Andrews Air Force Base (AFB), provides worldwide airlift and logistical support
    for the U.S. President, the Vice President, cabinet members, and other high-
    ranking U.S. and foreign government officials. The 89th Airlift Wing has
    43 aircraft—24 fixed-wing aircraft and 19 helicopters. In addition, the 89th
    Airlift Wing supports tenant organizations such as the District of Columbia Air
    National Guard and the 457th Airlift Squadron. The 89th Airlift Wing supported
    over 6,000 aircraft visits in FY 2002. The 89th Airlift Wing obtains contract
    logistics support for the management of aircraft maintenance, base supply, fuels,
    ground equipment, maintenance, and munitions under contract
    FA4452-01-C-0001 (the Contract), awarded to DynCorp Technical Services,
    Incorporated (DynCorp) on January 25, 2001. The potential total value of the
    Contract is $280.5 million over a 10-year period that started on April 1, 2001,
    with a firm-fixed-price portion of $268.9 million and an over and above portion
    not to exceed $11.6 million.

    DynCorp Technical Services, Incorporated. DynCorp is a provider of landlord
    services for government and commercial installations. DynCorp has six core
    capabilities: aviation services, base operations, contingency services, logistics
    support services, marine services, and range technical services. Aviation services
    include aircraft repair and maintenance of all types of fighters, helicopters,
    trainers, and transports. Logistics support for aviation services includes
    aerospace ground equipment (AGE) maintenance and other ancillary support;
    aviation engineering and support; information management; and supply.
    Logistics support services include the management of airfields, equipment
    maintenance and operation facilities, supply, and transportation. For each
    performance period under the Contract, DynCorp is required to provide all
    personnel, equipment, tools, materials, supervision, and other items or services
    necessary to perform the management and operations of the aircraft maintenance
    and base supply functions as defined in the performance work statement. In
    addition, DynCorp is required to provide over and above services including real
    world contingency support, local manufacturing, dispersals and deployments, and
    accident investigations.

    Trend Western Technical Corporation. Trend Western Technical Corporation
    (Trend Western), a privately owned logistics services provider, is a subcontractor
    of DynCorp under the Contract. Trend Western’s subcontracting services include
    base supply support, fuel storage and distribution, and transportation services.
    Trend Western is a current Air Force Standard Base Supply System (SBSS)
    contractor. Trend Western requisitions; receives; delivers; ships; inventories; and
    maintains accountability processes for disposal supplies containing hazardous



                                         1
    materials, classified assets, accountable equipment, and mobility support items
    and weapons.


Objectives
    The overall objective for the series of audits is to evaluate the effectiveness of
    contract logistics support in maintaining or improving aircraft readiness and DoD
    weapons systems. Specifically, we looked at whether DynCorp was providing
    adequate logistics support to the 89th Airlift Wing. In addition, we reviewed the
    management control program as it related to the objective. See Appendix A for a
    discussion of the scope and methodology, the review of the management control
    program, and prior coverage related to the audit objectives.




                                         2
                    A. Fulfillment of Contract Requirements
                    DynCorp effectively supported the 89th Airlift Wing mission of providing
                    worldwide airlift and logistical support. In addition, the 89th Airlift Wing
                    contracting officer’s representatives (COR1) performed adequate
                    surveillance over DynCorp. Specifically, DynCorp effectively managed
                    AGE, AGE bench stock, base supply, fuels, and munitions for the
                    89th Airlift Wing, with the exception of some minor issues. Effective
                    management occurred because DynCorp and Trend Western performed
                    physical inventories throughout the year and proactively resolved
                    inventory discrepancies in a timely manner. As a result, DynCorp has
                    earned more than the required minimum number of points for the first two
                    performance periods under the award term plan process, which makes it
                    eligible to be awarded future performance periods under the Contract.


Guidance
           DoD Guidance. DoD Regulation 4140.1-R, “DoD Materiel Management
           Regulation,” May 1998, provides policies for DoD components regarding
           management of materiel. The regulation states that the DoD component that has
           physical custody of materiel is responsible to care for and safeguard the materiel
           and shall maintain quantitative balance records by individual storage location. In
           addition, DoD components shall conduct annual physical inventories and shall
           take appropriate actions to ensure that the on-hand quantity and total item
           property records agree. DynCorp and its subcontractor, Trend Western, are
           required to follow DoD guidance under the terms of the Contract.

           Air Force Guidance. Air Force Manual 23-110, “CD [Compact Disc] Basic
           USAF Supply Manual,” volume 2, April 1, 2003, states, “Inventories of all
           properties held by Air Force activities will be conducted. [The] purpose of
           inventory [is to] validate the account [and to] correct errors. . . The process of
           taking inventory involves the counting of physical property, comparing physical
           counts to record balances, and adjusting or correcting records so that record
           balances and quantity of property on hand are identical.” DynCorp and Trend
           Western are required to follow Air Force guidance under the terms of the
           Contract.


DynCorp Support of 89th Airlift Wing Mission
           DynCorp effectively supported the 89th Airlift Wing mission of providing
           worldwide airlift and logistical support.

           89th Airlift Mission. The mission of the 89th Airlift Wing is to provide
           worldwide airlift and logistical support for the President, the Vice President,
           cabinet members, and other high-level U.S. dignitaries. In addition, the

1
    At the time of our audit, the 89th Airlift Wing had 12 CORs assigned to contract FA4452-01-C-0001.



                                                      3
            89th Airlift Wing supports the 99th Airlift Squadron Air Force Two mission and
            provides aircrew members to augment Air Force One missions. Also, the
            89th Airlift Wing provides support to transient aircraft from other Air Force and
            DoD organizations as well as support to aircraft carrying senior foreign
            diplomats.

            DynCorp Contractual Requirements. DynCorp is contractually obligated to
            perform the fuels, maintenance, and supply functions to support the 89th Airlift
            Wing mission. DynCorp is required to maintain all aircraft assigned to the
            89th Airlift Wing and to provide transient aircraft maintenance and servicing for
            all U.S. and foreign aircraft that transit Andrews AFB. DynCorp is required to
            maintain commercial derivative aircraft in accordance with all Federal Aviation
            Administration requirements. The Air Force is the responsible agent for the
            certification of airworthiness. In addition, DynCorp is required to provide
            sufficient mission capable aircraft, configured in accordance with the daily and
            weekly flying schedules. Also, DynCorp identifies requirements for support and
            services that are over and above the basic contractual requirements on work
            request proposals, which are negotiated and definitized as requirements are
            identified (see Appendix B).

            DynCorp Support of Worldwide Airlift Mission. DynCorp adequately
            supported the 89th Airlift Wing mission of providing worldwide airlift by
            maintaining an aircraft departure reliability average of 98.7 percent2 for mission,
            local, and transient aircraft launches in FY 2002. Specifically, DynCorp had fully
            mission capable aircraft under Federal Aviation Administration standards, which
            departed on schedule on an average of 98.7 percent of the time. For the first
            6 months of FY 2003, the DynCorp departure reliability average was
            99.2 percent.

            The 89th Airlift Wing COR explained how DynCorp interacted with the
            Contractor Operated and Maintained Base Supply (COMBS) contractors to
            support the 89th Airlift Wing mission. While DynCorp performs maintenance on
            the fixed-wing aircraft to keep them mission ready, DynCorp does not manage the
            parts. DynCorp obtains the parts from the COMBS contractors. Each COMBS
            contractor manages parts for a different type of fixed-wing aircraft. COMBS
            contractors are responsible for having parts on hand for DynCorp to perform
            maintenance and for repairing the parts that DynCorp turns in. The COR
            evaluates DynCorp on how well they maintain the aircraft, as shown by the
            aircraft departure reliability rate and quality reviews that are performed by the
            performance monitors and the COR. The COR evaluates the COMBS contractors
            on the availability of parts. If DynCorp could not perform aircraft maintenance
            because parts were not available, DynCorp would notify the COR, who would
            work to resolve the situation with the COMBS contractors. That situation would
            not adversely affect the DynCorp performance evaluation. Conversely, if
            DynCorp turned in parts to the COMBS contractors that were not in need of
            repair, the COMBS contractors would notify the COR, who would work with
            DynCorp to resolve the situation. That situation could adversely affect the
            DynCorp performance evaluation. According to the COR, the COMBS
            contractors have not reported any instances where DynCorp had turned in parts
            that did not need to be repaired.
2
    The percent is a weighted average combining mission launches, local launches, and transient launches.



                                                       4
    DynCorp Logistical Support. DynCorp effectively supported the 89th Airlift
    Wing mission of providing logistical support by efficiently managing AGE, AGE
    bench stock, base supply, fuels, and munitions.


AGE Inventory Records
    DynCorp adequately managed the AGE inventory, with the exception of meeting
    inspection requirements and having excess equipment on-hand (finding B).
    DynCorp tracked 224 pieces of AGE, valued at about $6.4 million. We
    performed a 100 percent physical inventory of the AGE listed on the R14 Report,
    “Custodian Auth/Receipt Products” (R14), June 5, 2003, and the R15 Report,
    “Organizational Visibility List” (R15), June 2, 2003, which were extracted from
    SBSS. We were able to physically locate all AGE listed in the reports. DynCorp
    and Trend Western implemented adequate procedures to achieve accurate
    inventory records. DynCorp personnel stated that, by reviewing the R14 on a
    regular basis, approximately every 90 days, DynCorp and Trend Western were
    able to correct discrepancies as they were found. In addition, DynCorp used an
    internal Microsoft Excel™ spreadsheet that listed all the data found in the R14
    and more to identify individual items of AGE, to track individual items, and to
    ensure that all items were accounted for. Also, DynCorp personnel stated that
    they physically locate equipment on a daily basis as part of the daily service
    inspections.


AGE Bench Stock
    Trend Western adequately managed the AGE bench stock inventory used to
    maintain and support AGE for the 89th Airlift Wing air operations at Andrews
    AFB. To evaluate the subcontractor’s performance in safeguarding and
    accounting for AGE bench stock inventory, we performed a physical inventory
    and a review of the inventory accounting controls and found two minor errors.
    Bench Stock. Air Force Manual 23-110, volume 2, defines bench stock as a
    group of items used regularly by maintenance activities. So that frequently used
    items are readily available, base supply moves repair parts from the supply
    warehouse to where the item will be used within the maintenance shop. Items
    classified as AGE bench stock and maintained by Trend Western included items
    such as batteries, bolts, filters, and tires. The unit cost of AGE bench stock items
    ranged from $0.13 to $399.00. The dollar threshold amount is established by the
    commander of the supported organization. The 89th Airlift Wing set a maximum
    per unit threshold of $500.00 for bench stock materiel.

    Authorized Stock Quantity Levels. Air Force Manual 23-110, volume 2,
    requires stock quantity levels to be established for each bench stock item held in
    inventory in each maintenance shop. According to the manual, the authorized
    stock level is approved by base supply and reviewed semi-annually to determine
    if the level is appropriate for repair requirements. As new equipment is acquired,
    a revised authorized stock quantity level of bench stock items is approved. In
    addition, any non-stocked items that are requisitioned are tracked to determine the


                                         5
            rate of use and whether the item is a potential candidate to add to inventory as a
            bench stock item. The 89th Airlift Wing is authorized to maintain a level of
            bench stock inventory that is up to 200 percent of the item’s authorized quantity.

            AGE Bench Stock Inventory Control. Trend Western implemented effective
            inventory controls. We performed a physical count of AGE bench stock stored in
            designated locations and compared it to the on-hand balances shown in SBSS
            inventory records for 45 sample records. See Appendix A for a breakdown of the
            population and sample by strata. We found that 27 of the 45 items were over or
            under the authorized stock levels, but within 200 percent of the item’s authorized
            quantity. However, there were two items that exceeded the 200 percent
            authorized quantity, but those items totaled less than $5. Those items represent a
            4.44 percent error rate. DoD Manual 4000.25-2-M, “Military Standard
            Transaction Reporting and Accounting Procedures (MILSTRAP),” September 19,
            2001, states that statistical sampling techniques must provide reasonable
            assurance that the property accountability records are accurate with a 95 percent
            level of confidence, accuracy level of 85 percent, and a maximum margin of error
            of 2 percent. If the sample inventory results do not satisfy the above criteria, a
            complete physical inventory of the population from which the sample was
            selected should be performed. However, given that the two errors totaled less
            than $5 and inventory controls were otherwise effective, we determined that the
            error was not material and did not justify performing a complete physical
            inventory of AGE bench stock.


Base Supply
            Trend Western, a current Air Force SBSS contractor, effectively managed and
            controlled items stored in the base supply warehouse. We performed a physical
            count of items stored in the base supply warehouse and compared it to the
            on-hand balances shown in SBSS inventory records for 304 sample records. See
            Appendix A for a breakdown of the population and sample by strata. We found
            no errors in the base supply inventory sample. Therefore, we concluded that
            Trend Western was properly accounting for and managing items in base supply.
            Trend Western personnel performed annual physical inventories as required by
            DoD Regulation 4140.1-R and Air Force Manual 23-110. Trend Western
            inventory officials provided us with their annual physical inventory and validation
            schedule for FY 2003. We accompanied a Trend Western official on an annual
            inventory of one of their supply points. We observed that everything reconciled
            with no errors found. In addition, the 89th Airlift Wing supply COR conducts
            monthly surveillance of Trend Western to ensure that the contractor is properly
            performing its physical inventory function.


Fuels
            Trend Western adequately managed and controlled the fuel3 inventory used to
            support operations at Andrews AFB. The 89th Airlift Wing Fuel COR stated that
3
    Fuels includes JP8 aviation fuel, diesel fuel, and gasoline.



                                                          6
he and the accountable officer provide oversight; they ensure compliance
throughout each process by monitoring all aspects regarding the Contract
statement of work. Trend Western is responsible for all accounting activities
related to fuel from receipt of the fuel to distribution to the customer. Fuel
accounting begins with the receipt of fuel from the Defense Energy Support
Center and ends with the distribution to the customer. Automated and manual
processes provide for the cross checks necessary to ensure accountability. Trend
Western personnel explained that Andrews AFB maintains fuel inventories on a
“full tank” premise rather than a “just in time” premise. That is, Andrews AFB
does not attempt to forecast the demand for fuel; rather, they keep the tanks filled.
We reviewed procedures and inventory controls for accounting, administration,
quality control, and distribution and found that Trend Western adequately
managed and controlled the fuel inventory used to support operations at
Andrews AFB.

Accounting. Trend Western maintained accurate records of on-hand fuel
balances. Trend Western personnel stated that its Accounting Section interfaces
with each functional area and receives all hard copy transaction documents to
validate against the automated registers; these documents are maintained as an
audit trail. The Accounting Section uses two automated systems for managing the
fuel inventories: the Fuels Automated System (FAS) and the Defense Fuels
Enterprise Server. Trend Western uses FAS to maintain and validate the data
prior to sending it to the Defense Energy Support Center-owned and maintained
Defense Fuels Enterprise Server. We reviewed and validated the daily
reconciliation of inventory records for the months of April and May 2003. The
inventory balances were consistent on a monthly basis, but because of the nature
of the mission at Andrews AFB, daily and weekly activities fluctuated. For both
months, the ending inventories were about 1.9 million gallons of JP8 aviation
fuel, valued at about $1.7 million. The average monthly sales for JP8 aviation
fuel were 2.3 million gallons, valued at about of $1.97 million.

Administration. The Trend Western fuels manager, along with the Trend
Western operations manager, performed adequate oversight of all stages of fuel
operations. The Trend Western managers worked closely with the 89th Airlift
Wing COR and the accountable officer to ensure compliance throughout the
process. Given the nature of activity at Andrews AFB, Trend Western
cross-trained all employees to provide a steady flow of fuel. The fuel manager
had the responsibility for oversight of the compliance and environmental
supervisor. According to Air Force Instruction 23-201, “Fuels Management,”
August 1, 1999, “no-notice” and semi-annual checks are required to be
conducted. We reviewed 10 “no-notice” checks that were conducted during the
month of April 2003; all checks were scored as “Pass”. According to the
Instruction, resolution of any discrepancies noted is required and re-inspections
must be documented within specified time frames.

Trend Western exceeded the efficiency standards for customer response time.
The Air Mobility Command and the 89th Airlift Wing set standards based on
aircraft priority. Standard response time for presidential, presidential support, and
priority one aircraft is 15 minutes. Standard response time for priority two, three,
and four aircraft is 30 minutes. Trend Western’s average response time for all
aircraft, January through June 2003, was approximately 8.7 minutes.



                                      7
    Quality Control. Trend Western provided quality control of fuel at Andrews
    AFB. Because the fuel at Andrews AFB is provided to Air Force One and other
    aircraft that carry high-ranking U.S. and foreign government officials, Trend
    Western operates a fuel lab at Andrews AFB that is unique because it provides
    more extensive on-site testing then on other Air Force bases. The Defense
    Energy Supply Center has an agreement with Trend Western to locally test all
    fuel coming into Andrews AFB. Once the fuel is tested and is considered
    contaminant-free, or within Air Force tolerance limits, it is transferred into
    holding tanks. The Trend Western fuel lab conducts additional quality checks of
    the fuel indirectly by testing the fuel dispensing equipment. If, at any time, the
    fuel or fuel dispensing equipment contains contaminants higher then the Air Force
    tolerance limits, the contaminated fuel can be segregated and drained and the
    exposed equipment can be decontaminated.

    Distribution. Trend Western adequately tracked and accounted for the
    distribution of fuel. Distribution of fuel can occur in multiple ways: stationary
    hydrants (JP8 aviation fuel) located on the flight line, tanker trucks (JP8 aviation
    fuel) dispatched to the flight line, ground fuels (diesel or gasoline) via tanker
    trucks, and ground fuels (diesel or gasoline) at one of the two base service
    stations. Each distribution method requires documentation for the accountability
    of the fuel. All pumps, tanker trucks, hydrants, and service stations are metered.
    The readings from the meters must match the distribution logs from the various
    areas. If pilferage were to occur, the accounting section would be able to detect it
    because of the multiple layers of records. Trend Western explained that its
    Resource Control Center manages fuel distribution. The Resource Control Center
    receives and processes the request, determines the best means for distribution, and
    dispatches the fuel to complete the mission. To test compliance with the
    operating procedures for the distribution of fuel, we observed activities on June 3,
    2003, at the two service stations. The fuels representative was able to demonstrate
    to us how he complied with current operating procedures for distributing fuel at
    the two service stations.

    Trend Western effectively managed the fuel operations at Andrews AFB with
    minimal oversight from DynCorp. DynCorp hired Trend Western as the
    subcontractor and tasked it with the fuels operation. The 89th Airlift Wing COR
    and accountable officer monitored Trend Western performance directly.


Munitions
    DynCorp adequately managed the munitions operation at Andrews AFB.
    Munitions support under the Contract includes receiving, inspecting, storing,
    reconditioning, shipping, issuing, and maintaining of all munitions. In addition,
    munitions support requires controlling inventory, accounting for items, computing
    requirements, determining allowances, and identifying munitions supplies and
    equipment. To evaluate the contractors performance in safeguarding and
    accounting for munitions inventory, we reviewed inventory, compatibility, and
    access controls.

    Munitions Inventory Controls. DynCorp implemented effective inventory
    controls by accurately accounting for and safeguarding munitions. Air Force


                                         8
Instruction 21-201, “Management and Maintenance of Non-Nuclear Munitions,”
January 13, 2003, states that proper inventory control procedures require that
inventories are periodically reviewed to validate the accuracy of accounting
records by reconciling national stock number quantity, lot number, condition
code, and location of assets. During the audit, we performed a 100 percent
physical inventory of DynCorp-controlled munitions, valued at $717, 205. The
type of munitions included small caliber ammunition, anti-personnel mines,
rockets, and fragmentation grenades. In total, there were 102 different items that
DynCorp requisitioned, inventoried, and managed.

During our physical inventory, we found a total of four discrepancies between the
physical count and the record count. However, DynCorp personnel were able to
reconcile each discrepancy by providing documentation to show the accounting
differences between the physical count and the record count. In addition to
conducting a physical inventory, we observed and recorded general inventory
control procedures. Specifically, we found the following items:

       •   Munitions were properly stored. All munitions were segregated by lot
           number, all munitions were elevated off the floor, side-to-side
           clearance was maintained to allow for adequate ventilation, and
           munitions were positioned to discharge away from the flight-line and
           other occupied building structures in the event of accidental
           explosions.

       •   Munitions were properly marked. All storage boxes were stenciled to
           denote national stock number and lot number.

       •   Munitions were properly secured. All storage bays are individually
           padlocked and alarmed.

       •   Compatibility guidelines were followed.

Munitions Compatibility Controls. DynCorp complied with Air Force
compatibility guidelines when storing munitions. Air Force Manual 91-201,
“Explosives Safety Standards,” October 18, 2001, outlines the safety precautions
and rules for storing explosives. We used the base munitions inventory report to
review the storage compatibility code that is assigned to each item on the stock
listing and compared the codes against the storage compatibility chart to check for
evidence of storage compatibility violations. We found no munitions
compatibility issues in our review of inventory records. In addition, we checked
for compatibility violations during our physical inventory; however, none were
observed.

Access Controls. DynCorp implemented adequate access controls to the
munitions areas. The munitions area consisted of a central administration
building, a maintenance building, and four ammunition storage bunkers. Each of
the four storage bunkers were divided into storage bays. In total, there were
120 storage bays where ammunition was stored. Of that, the 89th Airlift Wing
occupied and used 45 bays to store munitions that were under its custodianship.
The other bays were used by tenant organizations. The tenant organizations that
share the munitions facility at Andrews AFB are the 113th District of Columbia
Air National Guard, the 459th Air Wing, and the Naval Air Facility-Washington.


                                     9
    DynCorp used badges and keys to control access to the gates that enclose the
    munitions compound. Entry into the munitions area is via a gate for vehicles or a
    gate for foot traffic. There were 24 gate keys in circulation, and they were issued
    to designated personnel. The keys cannot be easily replicated. The only vehicles
    allowed inside the gate, with the exception of commercial semi-truck traffic that
    is either picking up or delivering ammunition cargo, were government vehicles.
    Individuals not authorized full access to the munitions area are required to be
    escorted while in the compound. In addition, all munitions bays under the control
    of DynCorp were secured with a high security padlock and were individually
    alarmed. There were no reported access violations in the munitions area that were
    logged in the security forces blotter by the 89th Base Security Force between
    March 27, 2002, and September 23, 2003.

    Inspection by Others. The Andrews AFB Safety Office performed semi-annual
    inspections of the munitions facility. The reviewer checked such items as
    accountability, compatibility, document control, and housekeeping. The most
    recent safety inspection was conducted in June 2003. The following elements
    were highlighted in that report.

           •   Required explosive facility licenses and waivers were available and
               up-to-date.

           •   Housekeeping and the physical appearance throughout the storage area
               was excellent.

           •   Proper fire and chemical symbols were posted.

           •   All required inspections were being conducted and properly
               documented.

           •   Explosive items were properly isolated. A physical count of all
               explosive items was performed and items on-hand matched inventory
               records.

    The Andrews AFB Safety Office safety inspectors found no discrepancies in the
    areas they reviewed.


Award Term Plan Process
    DynCorp has earned more than the required minimum number of points for the
    first two performance periods under the award term plan process, making it
    eligible for future performance periods under the Contract. The award term plan
    process is a method that the 89th Airlift Wing uses to evaluate DynCorp’s
    performance on the Contract to determine whether DynCorp will be awarded
    additional performance periods under the Contract. DynCorp can earn up to a
    maximum of six additional performance periods for a total contract period not to
    exceed 10 years. The award term plan process includes criteria and procedures, a
    points structure, and performance monitoring.




                                        10
            Criteria and Procedures. The 89th Airlift Wing may extend the contract period
            based on its evaluation of DynCorp’s performance using the criteria of quality,
            process improvements/cost savings, responsiveness, schedule, small business
            subcontracting management, and transition from government to contractor
            performance.4 Each of the criteria was assigned a different percentage weight in
            the evaluation methodology. The 89th Airlift Wing performance monitors and
            CORs continually evaluate DynCorp’s performance and report their findings to
            the Award Term Review Board. The performance monitors maintain written
            records of the contractor’s performance in their assigned evaluation area. The
            Award Term Review Board recommends award term points to the Term
            Determining Official who makes the final decision. The 89th Airlift Wing will
            determine whether DynCorp will be awarded the first additional performance
            period after they evaluate DynCorp’s performance for FY 2003.

            Points Structure. DynCorp will earn award term points based on its
            performance during each evaluation period. Each evaluation period is one year in
            duration running from October 1 to September 30, except period one which ran
            from April 1, 2001, to September 30, 2001, and period eight which will run from
            October 1, 2007, to March 31, 2008. The following table shows the number of
            required points and the additional performance periods that DynCorp can earn.

                             Points Needed For Additional Contract Performance Period
                                                Minimum
                   Evaluation Period            Required                   Earned Contract Period

             Period 1 through 3                                          Period 6
             April 1, 2001 thru Sep 30, 2003       198                   Oct 1, 2005 – Sep 30, 2006

             Period 4                                                    Period 7
             Oct 1, 2003 – Sep 30, 2004            81                    Oct 1, 2006 –Sep 30, 2007

             Period 5                                                    Period 8
             Oct 1, 2004 – Sep 30, 2005            81                    Oct 1, 2007 – Sep 30, 2008

             Period 6                                                    Period 9
             Oct 1, 2005 – Sep 30, 2006            81                    Oct 1, 2008 – Sep 30, 2009

             Period 7                                                    Period 10
             Oct 1, 2006 – Sep 30, 2007            81                    Oct 1, 2009 – Sep 30, 2010

             Period 8                                                    Period 11
             Oct 1, 2007 – Mar 31, 2008            81                    Oct 1, 2010 – Mar 31, 2011



            DynCorp can earn a maximum of 100 points for each evaluation period, plus an
            additional 10 points based on process improvements and cost savings. DynCorp
            must earn a total of 198 points for periods 1 through 3 to be awarded a 1-year

4
    Transition from government to contractor performance was considered as an evaluation criteria only for
     periods 1 and 2 because transition was completed by the end of period 2.



                                                        11
    award term extension after period 5. The 198 points is based on a minimum of
    51 points for period 1, a minimum of 66 points for period 2, and a minimum of
    81 points for period 3. The 89th Airlift Wing will total the award term points
    earned at the end of period 3 to determine whether they will award period 6 to
    DynCorp. For each additional period that DynCorp earns a minimum of
    81 points, the 89th Airlift Wing will award an additional performance period up
    to a maximum of 11 performance periods. If, at the end of a performance period,
    DynCorp did not earn the required points, then DynCorp would not be awarded
    additional performance periods and the award term plan will cease.

    Performance Monitoring. As part of overseeing the contractor, the 89th Airlift
    Wing performance monitors perform random, unscheduled spot checks
    throughout the year to rate the quality of the services that DynCorp and Trend
    Western provide under the Contract. In FY 2002, the performance monitors
    conducted 8,335 random spot checks of DynCorp and Trend Western and found
    361 (4.3 percent) major discrepancies. From October 2002 through March 2003,
    the performance monitors conducted 2,413 random spot checks of DynCorp and
    Trend Western and found 37 (1.5 percent) major discrepancies. A major
    discrepancy is a negative event that effects the contractor’s evaluation and can
    affect the number of points awarded to the contractor. DynCorp’s improved
    performance between FY 2002 and the first 6 months of FY 2003 indicated that
    DynCorp was proactively working to achieve a higher level of performance in
    order to ensure the continuation of the award term plan.

    Documentation of the Process. We determined that the award term process was
    adequately documented and that the evaluations by the 89th Airlift Wing
    performance monitors justified the points awarded to DynCorp for the first two
    evaluation periods—April 1, 2001, through September 30, 2001, and FY 2002.
    We reviewed detailed information compiled by the performance monitors for each
    of the evaluation criteria. We determined the accuracy of the performance
    monitors’ total point recommendations by recalculating the total points following
    the methodology prescribed in the plan. We compared the performance monitors’
    recommendations with the points that the Award Term Review Board awarded to
    DynCorp and determined that there was no substantial variation between the
    points recommended and the points awarded. The Award Term Review Board
    awarded 1 more point than was recommended for period 1 and 2.2 points less
    than was recommended for period 2.


Conclusion
    DynCorp did an effective job in providing contract logistics support for the
    89th Airlift Wing. Specifically, DynCorp and its subcontractor, Trend Western,
    effectively managed inventories of AGE, AGE bench stock, base supply, fuels,
    and munitions in accordance with the terms of the Contract and applicable DoD
    and Air Force regulations. The continued contract logistics support provided by
    DynCorp is critical to the successful completion of the 89th Airlift Wing mission
    of providing worldwide airlift and logistical support for U.S. and foreign
    government officials and transient aircraft. Although we found a few areas that
    could be improved upon (finding B), we have no recommendations because of the
    effectiveness of DynCorp’s management of Air Force assets at Andrews AFB.


                                       12
           B. Management of Aerospace Ground
              Equipment
           Overall, DynCorp effectively managed AGE, with the exception of some
           minor issues that DynCorp addressed during the audit. Specifically,
           DynCorp did not meet Air Force inspection requirements for 13 of
           224 pieces (6 percent) of AGE and had 11 pieces of AGE in excess of the
           Air Force Materiel Command authorized requirements. The inability to
           meet inspection requirements for AGE occurred because either DynCorp
           did not comply with Air Force regulations or because the inspections had
           taken place but the inspection records were incomplete. The excess pieces
           of AGE occurred because of a lack of coordination between DynCorp and
           Trend Western. As a result, AGE could break down and not be available
           when needed. During our audit, DynCorp and Trend Western took
           corrective action to reduce the excess AGE to two pieces, valued at
           $18,603. The two pieces of equipment were released from inventory that
           was managed by DynCorp for use elsewhere.


Air Force Guidance
    Air Force Instruction 21-101, “Aerospace Equipment Maintenance Management,”
    October 1, 2002, requires that maintenance personnel comply with written
    guidance to ensure that all required repairs, inspections, and documentation are
    completed in a safe, timely, and effective manner. Technical Manual
    TO 00-20-1, “Aerospace Equipment Maintenance Inspection, Documentation,
    Policies, and Procedures,” June 2003, provides equipment maintenance inspection
    and documentation guidance. TO 00-20-1 identifies equipment work cards as a
    valid source for equipment inspection requirements. The work cards list the
    applicable inspection criteria associated with each type of equipment. According
    to the work cards, periodic scheduled inspections are required to take place every
    6 months. The date of the actual scheduled inspections is written on “AFTO [Air
    Force Technical Order] Form 244” (Form 244), which is entered into the Core
    Automated Maintenance System (CAMS). DynCorp and its subcontractor, Trend
    Western, are required to follow Air Force guidance under the terms of the
    Contract.


AGE Inspection Requirements
    DynCorp did not meet Air Force inspection requirements for 13 of 224 pieces
    (6 percent) of AGE. Based on Form 244 and CAMS inspection data available,
    the 13 pieces of AGE did not receive 1 of the 2 regularly scheduled inspections
    within 12 months as required by the applicable equipment work cards. Even
    though DynCorp performed a scheduled inspection of all equipment within the
    last 6 months, the available records indicated that 4 items had no prior inspection
    record; and the inspection history for 9 items listed an inspection interval of
    12 months or more, instead of the required 6 months. The inability to meet
    inspection requirements for 13 pieces of AGE occurred either because DynCorp


                                         13
           staff did not fully comply with standard regulations or because the inspections
           had taken place but the inspection records were incomplete. When DynCorp
           could not provide the completed Form 244, DynCorp staff queried CAMS to
           obtain additional data. However, DynCorp’s attempts to retrieve information
           from CAMS proved to be time-consuming because the system could only be
           queried in 30-day intervals and had a tendency to disconnect the user from the
           system. As a result, we were unable to obtain a full maintenance history on the
           13 pieces. Therefore, we could not determine whether an inspection took place or
           whether the data was lost.

           Overall, the controls were effective in ensuring that inspections were up-to-date.
           The 89th Airlift Wing COR conducted spot checks of the DynCorp inspections
           and maintenance processes to ensure that proper equipment inspections and
           maintenance had been performed. A missed inspection of AGE equipment could
           result in faulty equipment that could break down; whereas, missing data would
           prevent the user from having a complete history of inspections and maintenance
           work performed on AGE. Scheduled inspections ensure that equipment remains
           in proper working order. Missing an inspection can result in a defect going
           undetected, which can lead to an equipment outage. Keeping a complete history
           of equipment maintenance records is important to the upkeep of the equipment.
           The 89th Airlift Wing stated that they planned to work with DynCorp to ensure
           that all scheduled inspection requirements are met and that inspection records are
           maintained in a more accessible manner. Because of the 89th Airlift Wing’s
           timely response to our suggestions, we are not making a recommendation.


Excess Pieces of AGE
           DynCorp had 11 pieces of AGE, valued at $560,765, in excess of the Air Force
           Materiel Command’s authorized requirements. Based on our analysis of the R14
           provided by Trend Western and data obtained from the Air Force Equipment
           Management System,5 we found 11 pieces of AGE in the inventory that were not
           authorized by Air Force Materiel Command. The excess pieces of equipment in
           the AGE inventory occurred because of a lack of communication between the
           Trend Western Equipment Management Section and the DynCorp AGE
           equipment custodian. Specifically, the Trend Western Equipment Management
           Section is responsible for ensuring that only authorized items appear on the R14,
           and the DynCorp AGE Equipment Custodian is responsible for submitting the
           proper documentation to obtain authorization if the item is required. However,
           DynCorp had not submitted the proper paperwork to Trend Western. If the item
           is not required, one of three things will happen to it:

                    •   If the item is still serviceable, it is placed back into the base supply
                        inventory.

                    •   If the item is unserviceable, it is forwarded to the Defense
                        Reutilization Material Office.


5
    The Air Force Equipment Management System contains all of the equipment data that is maintained by
     Air Force Materiel Command.



                                                    14
                    •   If the item has a ND46 designation, it is considered a depot item and
                        the item manager is contacted for further disposition instructions.

           DynCorp incurred unnecessary costs to maintain the unauthorized AGE.


Corrective Action Taken on Excess Pieces of AGE
           During our audit, Trend Western coordinated with DynCorp and provided the
           necessary documentation to show proper updates in the Air Force Equipment
           Management System for all 11 pieces of unauthorized AGE.

                    •   Eight pieces, valued at $539,913, were added to the list of authorized
                        AGE in the Air Force Equipment Management System after DynCorp
                        determined that the equipment was required and had submitted the
                        necessary documentation.

                    •   One piece, valued at $2,250, was listed on the R14 in error and was
                        removed from the inventory list.

                    •   One piece, valued at $2,881, was turned in to base supply for use
                        elsewhere.

                    •   One piece, valued at $15,722, was transferred from DynCorp’s
                        inventory to the 1st Helicopter Squadron’s inventory at Andrews AFB.

           As a result of the immediate action that DynCorp and Trend Western took, the
           issue has been resolved, and no recommendation is required.


Potential Monetary Benefits
           We initially identified 11 pieces of equipment in excess of Air Force Materiel
           Command requirements. However, after DynCorp and Trend Western took
           corrective action, we determined that the potential monetary benefit was $18,603
           for the two pieces of equipment that were released from inventory managed by
           DynCorp to be use elsewhere.


Management Comments on the Finding and Potential
 Monetary Benefits
           The Department of the Air Force concurred with the finding and the potential
           monetary benefits of $18,603. Specifically, the 89th Airlift Wing stated that it
           would work with DynCorp to ensure that all scheduled inspection requirements
           are met and that inspection records are maintained in a more accessible manner.

6
    ND4 designates a centrally managed, non-consumable item that is depot reparable.



                                                     15
Appendix A. Scope and Methodology
   We performed this audit at Andrews AFB, Maryland. We reviewed contract
   logistics support provided under contract FA4452-01-C-0001 by DynCorp and its
   subcontractor, Trend Western, to the 89th Airlift Wing during FY 2003 for a
   firm-fixed price of about $29.4 million. In addition, we reviewed the validity of
   work designated as over and above tasks that DynCorp performed from April 1,
   2001 through May 21, 2003, valued at about $1.5 million. We reviewed DoD and
   Air Force regulations regarding policies, responsibilities, and procedures for
   accounting for and controlling materiel. Under the terms of the Contract,
   DynCorp was required to comply with all applicable DoD and Air Force
   regulations. To determine whether DynCorp and Trend Western adequately
   accounted for and controlled equipment and materiel, we physically inventoried
   AGE, AGE bench stock, base supply, and munitions and reviewed management
   controls over fuels.

          AGE. DynCorp had 224 pieces of equipment valued at about
   $6.4 million. We conducted a 100 percent inventory of all AGE and collected
   data on the last two scheduled inspections for each item. In addition, we
   reviewed the authorized equipment listing in the Air Force Equipment
   Management System.

            AGE Bench Stock. DynCorp had 315 bench stock inventory records,
   valued at $13,398. We conducted an inventory of AGE bench stock based on a
   statistical sample of 45 records.

          Base Supply. Trend Western had 7,945 records, valued at $10.3 million.
   We conducted an inventory of base supply based on a statistical sample of
   304 records.

          Fuels. In May 2003, Trend Western had sales of 2.5 million gallons of
   JP8 aviation fuel and had an ending balance of about 2 million gallons, valued at
   about $1.7 million. We performed a validation of these records by comparing the
   information found in the Trend Western Resource Control Center Daily Summary
   and Ground Fuels Data reports to the May 2003 End-of-Month Operating
   Gain/Loss Report.

           Munitions. DynCorp reported 305 munitions line items, valued at
   $630,053. We conducted a 100 percent inventory of munitions that DynCorp had
   not transferred to custodial accounts, using a report generated from the Combat
   Ammunition System-Base system.

   We evaluated the COR surveillance over DynCorp through the award term plan
   process. In addition, we conducted extensive interviews with DynCorp and Trend
   Western personnel to gain an understanding of how they maintained and
   accounted for the Government property entrusted to them. Further, we met with
   the 89th Airlift Wing CORs to obtain further information on their role in
   overseeing DynCorp and ensuring that DynCorp complied with the terms of the
   Contract. We reviewed documentation dated from April 1989 through
   October 2003. We performed this audit from May through October 2003 in
   accordance with generally accepted government auditing standards.


                                      16
            Sample Design. We used a stratified random sampling design to select the
            samples from the base supply warehouse and AGE bench stock inventories. The
            strata were defined based on the unit price, as reported in the June 5, 2003, SBSS
            inventory records, and shown in the following tables.



                               Table A-1. Base Supply Population and
     Sampling

                                                       Population                            Sample
          Base Supply Warehouse              Items                  Dollars          Items            Dollars

     strata 1=> 100,000 <= 1,000,000          14                $ 2,397,649.52          14      $2,397,649.52
     strata 2=> 10,000 <= 99,999             181                  4,411,208.90         120       2,939,399.51
     strata 3 => 1,000 <= 9,999              873                  2,913,729.38         120         371,497.65
     strata 4 => 100 <= 999                1,369                    477,580.06          30           9,961.77
     strata 5 > 0 <= 99                    5,508                     98,409.18          20             372.15

        Total                              7,945                $10,298,577.04         304      $5,718,880.60



            The base supply inventory universe generated by SBSS contained 20,483 records.
            However, we removed 12,538 records* that did not have a warehouse location and
            had a unit price of zero. The adjusted universe contained 7,945 records valued at
            about $10.3 million.


                              Table A-2. Bench Stock Population and Sampling


                                                        Population                   Sample
                   AGE Bench Stock                 Items         Dollars         Items      Dollars

         strata 1 => 100                              33         $ 7,607.17       30          $7,104.17
         strata 2 < 100                              282           5,790.81       15             264.70

           Total                                     315         $13,397.98       45          $7,368.87



            Sample Results. The base supply inventory was accurate, but the AGE bench
            stock inventory was not completely accurate. We found no errors in the base
            supply sample. We found two errors in the AGE bench stock sample. The
            2 errors (0.6 percent of the total inventory) came to a total value of less than $5.


*
    DynCorp loaded the 12,538 records in anticipation of having to maintain a new type of aircraft.



                                                           17
    However, because of the high relative precision of the AGE bench stock
    inventory, we are unable to make a valid statistical projection.

    Use of Computer-Processed Data. We relied on computer-processed data from
    five systems to perform this audit. The Air Force Equipment Management
    System defines the authorized equipment levels for AGE. The Combat
    Ammunition System-Base is a standard system used for management of
    munitions. CAMS is a maintenance information system. The FAS manages fuels
    inventory to maintain fuels accounts. SBSS is the standard Air Force system for
    managing supply.

    The reliability of the systems utilized varied. The Combat Ammunition
    System-Base, FAS, and SBSS systems appeared to be reliable when compared to
    our physical inventory counts. However, the results on the scheduled inspections
    obtained from CAMS may not be fully accurate. According to DynCorp
    personnel, CAMS is not user friendly because data query options are unreliable.
    We could not obtain a complete inspection history for all AGE items; therefore,
    we could not determine whether the scheduled inspections took place.

    In addition, we relied on computer-processed data from the Air Force Equipment
    Management System to determine the authorized quantities of AGE. Although
    we did not perform a formal reliability assessment of this computer-processed
    data, the Trend Western staff considered it to be the authority on equipment
    requirements because it is a standard Air Force system that is maintained by Air
    Force Materiel Command. We did not identify any errors that would preclude the
    use of the computer-processed data to meet the audit objectives or that would
    change the conclusions in this report.

    Use of Technical Assistance. Research analysts from the Quantitative Methods
    Division of the Office of the Inspector General of the Department of Defense
    provided assistance in designing the statistical sampling plan for selecting
    inventory records for review and projecting the results for AGE bench stock and
    base supply inventories.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the high risk areas of contract management and improving the quality of logistics
    support.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over contract logistics support for the
    89th Airlift Wing, Andrews AFB, Maryland. Specifically, we reviewed the


                                        18
    adequacy of DynCorp and Trend Western management controls over the
    accountability and control of AGE, AGE bench stock, base supply, fuels, and
    munitions. In addition, we reviewed the adequacy of 89th Airlift Wing’s
    management controls over the processing of over and above work requests.
    Because we did not identify a material weakness, we did not assess management’s
    self-evaluation.

    Adequacy of Management Controls. The 89th Airlift Wing, DynCorp, and
    Trend Western management controls that we reviewed were adequate; we
    identified no material management control weaknesses.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD), and the Air Force Audit Agency have issued two reports discussing
    contract logistics support for Andrews AFB. Unrestricted IG DoD reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. 99-077, “Allegations to the DoD Hotline on Contract
    Maintenance for the C-20 Aircraft,” February 4, 1999


Air Force
    Air Force Audit Agency Report F2002-0068-EA0000, “Aircraft Maintenance
    Contract Payments 89th Airlift Wing Andrews AFB MD,” September 18, 2002




                                      19
Appendix B. Other Matters of Interest

Over and Above Tasks
    Three over and above tasks were definitized during the period from April 1, 2001
    to May 21, 2003, valued at about $1.5 million. We determined that the work was
    valid and met the Contract definition of over and above work. However, one
    work request proposal was not submitted in writing and none of the three work
    requests were definitized before 40 percent of the work was complete, as required
    by the Contract.

    Work Request Proposals. DynCorp did not prepare and submit the required
    written work request proposal for the first over and above task for Operation
    Noble Eagle. The Contract states that the contractor shall prepare and submit
    work request proposals for necessary over and above items. A work request
    proposal should include the contract number and task order number; program
    title; date of submission; a description of the proposed work; work request
    number; and a total proposed firm-fixed-price supported by a breakdown of labor,
    parts and materials, and direct travel costs.

    The work, maintenance, and supply support of Operation Noble Eagle, was
    proposed and accepted through a verbal dialog between the contractor and the
    COR office. DynCorp officials stated that the failure to submit a written work
    request was the result of the sudden and unusual circumstances surrounding the
    events of September 11, 2001. We determined that appropriate work request
    proposals were submitted for the two subsequent over and above tasks.

    Work Request Definitization. The 89th Airlift Wing did not definitize the three
    work requests before 40 percent of the work was complete. The Contract states
    that negotiations for the work requests and definitization of a firm-fixed-price
    must be accomplished prior to 40 percent completion of the work effort unless
    otherwise approved in writing by the contracting officer. Personnel at the
    89th Airlift Wing and DynCorp stated that there would be a joint effort to
    improve the negotiating process so that over and above work requests are
    definitized in a timely manner.




                                       20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
       Resources)
     Assistant Under Secretary of Defense (Logistics, Plans, and Programs)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Mobility Command
  Commander, 89th Airlift Wing, Andrews Air Force Base

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget


                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Department of the Air Force Comments




                     23
24
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Catherine M. Schneiter
Douglas P. Ickes
Beverly L. Cornish Brown
Steven G. Schaefer
William E. Shimp
Teena R. Propst
Lusk F. Penn
James Hartmen
Susann L. Cobb




                                   25
